Audit Report




OIG-14-041
SAFETY AND SOUNDNESS: Failed Bank Review of Millennium
Bank, National Association, Sterling, Virginia
July 2, 2014




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                July 2, 2014


            OIG-14-041

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                  Susan Barron /s/
                                   Director, Banking Audits

            SUBJECT:               Failed Bank Review of Millennium Bank, National Association


            This memorandum presents the results of our review of the failure of Millennium
            Bank, National Association (Millennium Bank), located in Sterling, Virginia.
            Millennium Bank was chartered in 1999 and is wholly owned by Millennium
            Bankshares Corporation (Holding Company). In addition to its headquarters in
            Sterling, Millennium Bank maintained a branch in Herndon, Virginia. The Office of
            the Comptroller of the Currency (OCC) closed Millennium Bank and appointed the
            Federal Deposit Insurance Corporation (FDIC) as receiver on February 28, 2014. As
            of December 31, 2013, Millennium Bank had approximately $130.3 million in total
            assets. As of May 31, 2014, FDIC estimated the loss to the Deposit Insurance
            Fund to be $7.7 million.

            Because the loss to the Deposit Insurance Fund was less than $50 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
            of the failure of Millennium Bank that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC reports of examination for the
            5-year period before the bank’s failure, and (3) interviewed an OCC problem bank
            specialist.

            We performed our fieldwork during March and April 2014. We conducted this
            performance audit in accordance with generally accepted government auditing
            standards. Those standards require that we plan and perform the audit to obtain
            sufficient, appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.
OIG-14-041
Page 2

Causes of Millennium Bank’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to any unsafe or unsound
practice; (2) the bank was in an unsafe or unsound condition to transact business;
(3) the bank had incurred or was likely to incur losses that would deplete all or
substantially all of its capital, and there was no reasonable prospect for the bank to
become adequately capitalized without federal assistance; (4) the bank's unsafe or
unsound practices or conditions were likely to cause insolvency or substantial
dissipation of assets or earnings; (5) the bank's unsafe or unsound practices or
conditions were likely to weaken the bank's condition; (6) the bank's unsafe or
unsound practices or conditions were likely to seriously prejudice the interests of the
Deposit Insurance Fund; (7) the bank was undercapitalized, and had no reasonable
prospect of becoming adequately capitalized; (8) the bank was undercapitalized, and
had failed to submit a capital restoration plan acceptable to the OCC within the time
prescribed; and (9) the bank was critically undercapitalized.

The primary causes of Millennium Bank’s failure were (1) an ineffective board of
directors and management due in part by high management turnover and
insufficient staffing and (2) excessive concentrations in commercial real estate
(CRE) loans. The bank’s problems stemmed from the decision by the board and
senior management to pursue an aggressive CRE loan growth strategy without
appropriate risk selection, underwriting, and credit administration. Despite repeated
criticism from OCC, the board and management failed to comply with OCC’s formal
enforcement actions to rehabilitate the bank’s declining financial condition and
correct the bank’s unsafe or unsound practices. The board and management’s
inadequate oversight and failure to adjust quickly or effectively to the changing
economic conditions and the declining real estate market resulted in the
deterioration of the bank’s asset quality and dissipation of capital, which eventually
lead to its failure.

Conclusion
Based on our review of the causes of Millennium Bank’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure that would necessitate an
in-depth review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated it agreed with our conclusion as to the
causes of the failure of Millennium Bank and that it had no concerns with our
determination that an in-depth review of the bank’s failure is not warranted. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.
OIG-14-041
Page 3


We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Dana
Duvall, Audit Manager, at (202) 927-9648.

Attachments
        OIG-14-041
       Attachment 1
Management Response
        OIG-14-041
       Attachment 1
Management Response
                                                      OIG-14-041
                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
